No. 19-177
In The

^upr^m^ (Haurt txi
United States Agency for International
Development, et al.,
Petitioners,
V.

Alliance for Open Society International, Inc., et al..
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,994
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

Jessica Ring Amunson

